No.

IN THE

Qlmtrf nf tlje

J&tatez

Tomas Rodriguez Infante,
Petitioner,

v.

Michael Martel, Warden;
California Department of Corrections and Rehabilitation,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

Cuauhtemoc Ortega
Interim Federal Public Defender
Mark R. Drozdowski*
Deputy Federal Public Defender
321 East 2nd Street
Los Angeles, California 90012
Telephone: (213) 894-2854
Facsimile: (213) 894-0081
Mark_Drozdowski@fd.org

Attorneys for Petitioner
* Counsel of Record

QUESTIONS PRESENTED
1.

“This Court firmly has rejected the view that assumptions of

partiality based on race provide a legitimate basis for disqualifying a person

as an impartial juror.” Georgia v. McCollum, 505 U.S. 42, 59 (1992). Does a
trial court violate the Equal Protection Clause when it removes a Filipino
juror over the objection of a Filipino criminal defendant because it does not

“want any allegiance to one party” -- the defendant -- “over the other based
upon racial identification”?

2.

Does a trial court’s removal of a seated Filipino juror over the

objection of a Filipino criminal defendant because it does not “want any

allegiance to one party” -- the defendant -- “over the other based upon racial
identification” violate the defendant’s constitutional rights to an impartial

jury or to due process?

i

PARTIES AND LIST OF PRIOR PROCEEDINGS
The parties to this proceeding are Petitioner Tomas Rodriguez Infante
and Respondents Michael Martel, Warden, and the California Department of
Corrections and Rehabilitation. The California Attorney General represents

Respondents.
Infante was convicted by jury in the Los Angeles County Superior

Court on June 18, 2014 in People v. Tomas Rodriguez Infante, case no.

KA100655, Judge Mike Camacho, presiding. Clerk’s transcript of trial
(“CT”), district court docket 8, lodgment 1, at 148. Judgment was entered
against Infante on July 8, 2014. CT 181-182.

The California Court of Appeal affirmed the judgment on appeal in an
unpublished opinion filed on October 26, 2015 in People v. Infante, case no.
B258176. Petitioner’s Appendix attached hereto (“Pet. App.”) 75-85. The

California Supreme Court denied Infante’s petition for review on January 20,

2016 in case no. S230952. Pet. App. 74. After ordering a response from the
State, this Court denied Infante’s petition for a writ of certiorari on October
3.

2016 in case no. 15-8613. Pet. App. 73; Infante v. California, 137 S. Ct. 37

(2016).

On April 5, 2017, Infante timely filed a pro se habeas corpus petition in
Tomas Rodriguez Infante v. Neil McDowell, Warden, C.D. Cal. case no. CV

17-02596-SJO-AFM. Pet. App. 51; district court docket 1. On April 10, 2017,

ii

United States Magistrate Judge Alexander F. MacKinnon appointed counsel
for Petitioner. District court docket 4. On December 20, 2017, the magistrate

judge filed a final report recommending that Infante’s habeas corpus petition
be denied and the action dismissed with prejudice. Pet. App. 51-72. On

February 27, 2018, United States District Judge S. James Otero entered
orders accepting the recommendation, denying the petition, dismissing the

action with prejudice, and denying a certificate of appealability (“COA”). Pet.
App. 45-50; district court dockets 36, 38. Judgment was entered against

Infante the same day. Pet. App. 45; district court docket 37.
Petitioner timely filed a notice of appeal on March 2, 2018. District

court docket 39. The Ninth Circuit Court of Appeals granted a COA on
September 25, 2018 in Tomas Rodriguez Infante v. Neil McDowell, Warden;
California Department of Corrections and Rehabilitation, case no. 18-55286.

Ninth Circuit docket 4. On March 13, 2020, the Ninth Circuit, per the
Honorable Marsha S. Berzon and Paul J. Watford, Circuit Judges, and

Robert H. Whaley, United States District Judge for the Eastern District of
Washington, sitting by designation, affirmed the judgment in a published
opinion in Tomas Rodriguez Infante v. Michael Martel, Warden; California

Department of Corrections and Rehabilitation, 953 F.3d 560, case no. 18-

55286. Pet. App. 32-44.

iii

TABLE OF CONTENTS

PAGE
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

3

I.

Trial

3

II.

State Direct Appeal

6

HI.

Federal Habeas Action

10

REASONS FOR GRANTING THE WRIT

12

I.

Standards of Review and AEDPA Standards

12

II.

Infante Should Receive a New Trial Because the
Trial Judge Removed Juror 8 in Violation of Infante’s
Fourteenth Amendment Right to Equal Protection of
the Laws

16

The State Court Did Not Adjudicate the Merits
of the Equal Protection Claim and Therefore It
Is Reviewed De Novo

16

B.

Infante Is Entitled to Relief on De Novo Review

18

C.

Even If 28 U.S.C. § 2254(d) Applies, It Does
Not Bar Relief

25

Infante Should Receive a New Trial Because the
Trial Judge Removed Juror 8 in Violation of
Infante’s Sixth Amendment Right to an Impartial
Jury and His Fourteenth Amendment Right to
Due Process

28

A.

III.

30

CONCLUSION

iv

TABLE OF CONTENTS

PAGE
INDEX TO APPENDIX

31

APPENDIX

32

v

TABLE OF AUTHORITIES
PAGE(S)
Federal Cases
Abdul-Kabir v. Quarterman,
550 U.S. 233 (2007)

14

Akins v. Texas,
325 U.S. 398 (1945)

19

Amado v. Gonzalez,
758 F.3d 1119 (9th Cir. 2014)

13

Batson v. Kentucky,
476 U.S. 79 (1986)

7, 11, 18

Brewer v. Quarterman,
550 U.S. 286 (2007)

15

Brumfield v. Cain,
135 S. Ct. 2269 (2015)

16, 26

Cone v. Bell,
556 U.S. 449 (2009)

13

Cook v. LaMarque,
593 F.3d81 (9th Cir. 2010)

20, 23

Crist v. Bretz,
437 U.S. 28 (1978)

8

Crittenden v. Chappell,
804 F.3d 998 (9th Cir. 2015)

18

Cudjo v. Ayers,
698 F.3d 752 (9th Cir. 2012)

15

Curiel v. Miller,
830 F.3d 864 (9th Cir. 2016) (en banc)
Davis v. Ayala,
135 S. Ct. 2187 (2015)

12, 13

7

vi

TABLE OF AUTHORITIES

PAGE(S)
Edmonson v. Leesville Concrete Co., Inc.,
500 U.S. 614 (1991)

18

Flowers v. Mississippi,
139 S. Ct. 2228 (2019)

20

Frantz v. Hazey,
533 F.3d 724 (9th Cir. 2008) (en banc)

13, 14, 16

Gonzalez v. Duncan,
551 F.3d 875 (9th Cir. 2008)

15

Green v. LaMarque,
532 F.3d 1028 (9th Cir. 2008)

26

Hicks v. Oklahoma,
447 U.S. 343 (1980)

8

Infante v. California,
137 S. Ct. 37 (2016)

10

Infante v. Martel,
953 F.3d 560 (9th Cir. 2020)

1

Irvin v. Dowd,
366 U.S. 717 (1961)

29

Johnson v. Williams,
568 U.S. 289 (2013)

14, 17

Kesser v. Cam-bra,
465 F.3d 351 (9th Cir. 2006) (en banc)

28

Lockyer v. Andrade,
538 U.S. 63 (2003)

14

Mann v. Ryan,
828 F.3d 1143 (9th Cir. 2016) (en banc)

12

vii

TABLE OF AUTHORITIES

PAGE(S)
Maxwell v. Roe,
628 F.3d 486 (9th Cir. 2010)

16

Mayfield v. Woodford,
270 F.3d 915 (9th Cir. 2001) (en banc)

12

Merced v. McGrath,
426 F.3d 1076 (9th Cir. 2005)

29

Miller-El v. Dretke,
545 U.S. 231 (2005)

26, 27, 28

Morgan v. Illinois,
504 U.S. 719 (1992)

29

Panetti v. Quarterman,
551 U.S. 930 (2007)

15, 16

Shirley v. Yates,
807 F.3d 1090 (9th Cir. 2015)

28

Silva v. Woodford,
279 F.3d 825 (9th Cir. 2002)

13

Snyder v. Louisiana,
552 U.S. 472 (2008)

18, 27

Taylor v. Maddox,
366 F.3d 992 (9th Cir. 2004)

16, 27, 30

Thaler v. Haynes,
559 U.S. 43 (2010) (per curiam)

26

United States v. Christensen,
828 F.3d 763 (9th Cir. 2015)

24

United States v. Mitchell,
502 F.3d 931 (9th Cir. 2007)

19, 20, 21, 22

viii

TABLE OF AUTHORITIES

PAGE(S)
Uttecht v. Brown,
551 U.S. 1 (2007)

24, 25

Wainwright v. Witt,
469 U.S. 412 (1985)

29

Wardius v. Oregon,
412 U.S. 470 (1973)

8

Washington v. Glucksberg,
521 U.S. 702 (1997)

8

Wiggins v. Smith,
539 U.S. 510 (2003)

15

Wilson v. Sellers,
138 S. Ct. 1188 (2018)

14

Woodford v. Garceau,
538 U.S. 202 (2003)

13

State Cases
People v. Wheeler,
22 Cal. 3d 258 (1978)

.7

Federal Constitution and Statutes
28 U.S.C. § 1254(1)

2

28 U.S.C. § 1291

2

28 U.S.C. § 2241

2

28 U.S.C. § 2253

2

28 U.S.C. § 2254

passim

U.S. Const, amend. VI

passim

U.S. Const, amend. XIV

passim
ix

TABLE OF AUTHORITIES

PAGE(S)

State Statutes
3

Calif. Penal Code § 187(a)

passim

Calif. Penal Code § 1089

x

PETITION FOR A WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Tomas Rodriguez Infante petitions for a writ of certiorari to review the

judgment of the Ninth Circuit Court of Appeals affirming the judgment

against him in his habeas corpus action.

OPINIONS BELOW
The Ninth Circuit’s opinion affirming the judgment against Infante is
reported at Infante v. Martel, 953 F.3d 560 (9th Cir. 2020). Pet. App. 32-44.

The district court’s judgment and its orders accepting the magistrate judge’s
report and recommendation, dismissing the habeas action against Infante
with prejudice, and denying a COA are unreported. Pet. App. 45-50; district
court docket 38.

The opinion by the California Court of Appeal affirming Infante’s
judgment on appeal is unreported. Pet. App. 75-85. The order by the

California Supreme Court denying Infante’s petition for review is unreported.

Pet. App. 74.

1

JURISDICTION
The Ninth Circuit’s judgment affirming the judgment against Infante
was filed and entered on March 13, 2020. Pet. App. 32; Ninth Circuit docket

40. The district court had jurisdiction under 28 U.S.C. §§ 2241 and 2254.

The Ninth Circuit had jurisdiction pursuant to 28 U.S.C. §§ 1291 and 2253.
This Court has jurisdiction under 28 U.S.C. § 1254(1). This petition is timely

under Supreme Court Rule 13.1 and the Court’s order of March 19, 2020
extending the filing deadline for certiorari petitions by another 60 days

because of Covid-19.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Sixth Amendment to the U.S. Constitution
“In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the state and district wherein
the crime shall have been committed, which district shall have been

previously ascertained by law, and to be informed of the nature and cause of
the accusation; to be confronted with the witnesses against him; to have

compulsory process for obtaining witnesses in his favor, and to have the

assistance of counsel for his defense.”

Section 1 of the Fourteenth Amendment to the U.S. Constitution
“All persons born or naturalized in the United States, and subject to
the jurisdiction thereof, are citizens of the United States and of the State

2

wherein they reside. No State shall make or enforce any law which shall

abridge the privileges or immunities of citizens of the United States; nor shall

any State deprive any person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction the equal protection of
the laws.”

28 U.S.C. § 2254(d)
“An application for a writ of habeas corpus on behalf of a person in

custody pursuant to the judgment of a State court shall not be granted with

respect to any claim that was adjudicated on the merits in State court
proceedings unless the adjudication of the claim

(1) resulted in a decision that was contrary to, or involved an
unreasonable application of clearly established Federal law, as determined by

the Supreme Court of the United States; or

(2) resulted in a decision that was based on an unreasonable

determination of the facts in light of the evidence presented in the State court

proceeding.”

STATEMENT OF THE CASE

I.

Trial
On September 5, 2013, an information was filed charging Infante with

the murder of Charito Tolentino, his wife, in violation of California Penal

Code § 187(a). CT 12, 77; Pet. App. 77.

3

On June 11, 2014, the juror who was eventually seated as Juror 8 and
whose removal forms the basis of this petition answered questions on voir

dire as Juror 14. Augmented reporter’s transcript of trial (“ART”) 324, 345.1

The juror said he was married but separated, was a machine operator, had no
prior jury experience, had “family back home,” and that his uncle was a police
officer. ART 324. When asked by Judge Mike Camacho if he could “serve on

the case for [the] time that will be necessary,” he replied, “[i]t’s kind of

difficult for me because my sister works in the morning and I’m like, swing
shift. Nobody take care of mom. She’s 86 and has illness.” ART 327. He

said his brother-in-law was taking care of his mother. Id. The court said:
“You have home-care issues for your elderly mother. We will take that into

consideration . . .

Id. Juror 14 was empaneled and served as Juror 8.

After the jury was sworn, but before opening statements or the
introduction of evidence, Juror 8 told the judge that Infante “looks like my
uncle. It’s going to be harder for me.” Pet. App. 88. The judge told Juror 8

that he could not let the resemblance affect his vote and asked whether he
was saying that he would not vote guilty if the prosecution proved its case

“because of the concern you’re telling me about.” Pet. App. 90. Juror 8

1 See district court docket 8, lodgment 4.

4

replied: “I - like I said, it’s kind of hard for me. I know he’s Filipino. I’m

Filipino. It doesn’t have nothing to do with that, but it just reflects me [sic]

that he looks like my uncle. I hope that there would be no problem when it
comes to make my own decision.” Id. The judge said that he “need[ed] a
definite answer, can you separate those issues out from this case and not

allow those to affect your decision.” Pet. App. 91. Juror 8 said, “Yes, I will.”
Asked again, he repeated, “I will.” Id.

After this colloquy, the prosecutor, Miriam Avalos, asked that Juror 8
be removed and said that she would have used a peremptory strike to remove

him during voir dire if he had made any of these statements then. Pet. App.
92. Defense counsel Walter Kuiland objected to removing Juror 8 and said

that Juror 8 may have been trying to avoid jury duty because he needed to

care for his mother, a situation he had described in voir dire. Pet. App. 92-93.

The judge told counsel that Juror 8 “has expressed some troubling
concerns to the court with respect to his ability to be impartial. He
mentioned that he is Filipino. He mentioned that he knows Mr. Infante is

Filipino. He mentioned Mr. Infante resembles a family member.” Pet. App.
93. The court continued:
I can’t see that the prosecution would get a fair trial
with this particular juror given the representations
that he has made, especially based upon race, racial
identity. That is my concern regardless of whether or
not he resembles a family member. I don’t want any

5

allegiance to one party over the other based upon
racial identification. Granted, the People’s witnesses,
perhaps victim are of the same race; but I think it
would be best to substitute No. 8 in for an alternate
. . . . This will be done over defense objection.
[Defense counsel] has made his position abundantly
clear .... This is more so out of an abundance of
caution than anything else. It will be done. And
Juror 8 will be excused from this case at 1:30.”

Pet. App. 93-94 (emphasis added).
After the lunch break, the court removed Juror 8 for an alternate,

telling him that “the court is going to act, out of an abundance of caution, just
to go ahead and excuse you from this case. We need individuals who are

willing to be fair to both sides, follow the law as required. We’re concerned
whether or not you can maintain that responsibility throughout this case. So
you’re excused.” Pet. App. 95-96 (emphasis added).

On June 18, 2014, the jury found Infante guilty of first-degree murder.
CT 148. On July 8, 2014, Judge Camacho sentenced Infante to 25 years to

life in state prison. CT 181-182; Pet. App. 77.

II.

State Direct Appeal
Infante challenged the removal of Juror 8 on state direct appeal,

arguing that the juror’s removal violated both state and federal law. District

court docket 8, lodgment 5. He asserted the federal bases of his equal

protection claim that would later be alleged as ground one of his federal

petition. He argued that “[t]he groundless removal of Juror 8 on the basis of

6

ethnicity and national origin violated [his] federal constitutional right to
equal protection.” Id. at page 29 (heading, emphasis deleted). He argued

that if prosecutors are forbidden from removing jurors based on the

assumption that the juror is biased because of his or her race or ethnicity,

judges are, too. Id. at 30. In support of his argument, he repeatedly cited
Batson v. Kentucky, 476 U.S. 79 (1986), district court docket 8, lodgment 5 at

25, 29-31, 37; its state-law analog, People v. Wheeler, 22 Cal. 3d 258 (1978),2

district court docket 8, lodgment 5 at 25, 30-31, 37; and the Equal Protection

Clause of the Fourteenth Amendment, district court docket 8, lodgment 5 at
25, 29, 31.
Respondent’s brief focused on Infante’s state law claims, arguing that

the court properly exercised its discretion to remove Juror 8 under California
Penal Code § 1089, but did not engage on Infante’s federal constitutional

claims. District court docket 8, lodgment 6. Respondent’s brief never

mentioned Batson, Wheeler, or equal protection, although it twice vaguely
asserted that there was no constitutional violation. Id. at pages 4, 10.

Infante’s reply reasserted his equal protection claim. District court docket 8,
lodgment 7 at 5, 8-9.

2 Davis v. Ayala, 135 S. Ct. 2187, 2195 (2015).

7

Infante likewise asserted on direct appeal the federal bases of what
would become ground two of his federal petition, i.e., that the removal of

Juror 8 violated his federal constitutional rights to due process and to a fair
trial by an impartial jury. District court docket 8, lodgment 5 at 20, 22-23,
28-29, 37. In support of his argument, he cited Washington v. Glucksberg,

521 U.S. 702 (1997), Hicks v. Oklahoma, 447 U.S. 343 (1980), Crist v. Bretz,

437 U.S. 28 (1978), Wardius v. Oregon, 412 U.S. 470 (1973), and the Sixth
and Fourteenth Amendments. District court docket 8, lodgment 5 at 22-23.
28-29. Respondent did not engage on these federal claims, either. District

court docket 8, lodgment 6. Infante reasserted his federal claims in his reply

brief. District court docket 8, lodgment 7 at 5, 8-9.
The California Court of Appeal affirmed the judgment in an

unpublished opinion. Pet. App. 75-85. The opinion focuses on the Penal Code

4 1089 claim and rules that “the trial court had a sufficient basis to conclude
that the juror could not carry out his functions.” Pet. App. 84. According to

the Court of Appeal, Juror 8’s statements suggested he “was unable to

perform the function of a juror because of his inability to be impartial.” Pet.

App. 83-84. The court found “noteworthy” “the prosecutor’s observations that
were visible to the trial court that when the juror talked to the court, ‘I

noticed his eyes were getting red, his voice was a little bit shaky as well, and

he just expressed such reservations.’” Pet. App. 84.
8

The opinion refers to constitutional rights four times, although it never
mentions equal protection, any federal cases, or Wheeler. First, in the

introduction, the court states that “(according to defendant, the removal of

the juror violated Penal Code section 1089 and his constitutional rights.”
P et. App. 76 (footnote omitted). Second, it states that “[d]efendant contends

that the trial court committed error in violation of his statutory and

constitutional rights by discharging Juror No. 8 before trial.” Pet. App. 80.

Third, it describes the “heightened standard” of the “demonstrable reality”
test that applies to the claim that the dismissal of a seated juror violates
California Penal Code § 1089 as reflecting “an appellate court’s obligation to

protect a defendant’s fundamental rights to due process and to a fair trial by
an unbiased jury.” Pet. App. 82. Fourth, it concludes that “[r]emoving Juror
N o. 8 was not an abuse of discretion or a statutory or constitutional
violation.” Pet. App. 84.

After the Court of Appeal affirmed the judgment, Infante filed a

petition for rehearing and, after that was denied, a petition for review in the
California Supreme Court reasserting (and exhausting) the federal
constitutional claims that he would later raise in federal court. District court

docket 8, lodgments 9-11. The California Supreme Court summarily denied
the petition for review without reasoning. Pet. App. 74. Infante did not file a

state habeas petition. District court docket 1 at 4.

9

Infante next pressed his equal protection claim in a petition for a writ

of certiorari. Docket in United States Supreme Court case no. 15-8613,
March 10, 2016 entry. He framed the question presented as follows: “Does a
trial judge violate a criminal defendant’s right to equal protection and Batson

v. Kentucky and its progeny when it removes a seated juror ‘out of an
abundance of caution,’ fearing that the juror harbors race-based allegiance
because he and the defendant share the same ethnicity or national origin,
when the record provides no evidence of such allegiance on the juror’s part?”
Id. at i (footnote omitted). After taking the rare step in a non-capital case of

ordering a response, the Court denied the petition. Infante v. California, 137
S. Ct. 37 (2016); Pet. App. 73; docket in United States Supreme Court case
no. 15-8613, May 5, 2016 and October 3, 2016 entries.

III.

Federal Habeas Action
Infante asserted his two exhausted claims in a federal habeas corpus

petition that was prepared by his state appellate lawyer but which was filed

pro se on April 5, 2017. District court docket 1; district court docket 2 at 2.

The first claim alleges that the trial court violated the Equal Protection
Clause of the Fourteenth Amendment when it removed seated Juror 8 on the
ground that the juror’s and Petitioner’s shared Filipino heritage created an

‘“allegiance to one party’” -- the defense -- “‘over the other based upon racial

10

identification.’” District court docket 1 at ECF pages 5-9, 18-32, 43.3 The

second claim alleges that the removal of Juror 8 violated Infante’s Fourteenth

Amendment right to due process and his Sixth Amendment to a fair trial by
an impartial jury. Id. at 9, 41-43. Magistrate Judge Alexander F.

MacKinnon appointed counsel for Infante because “petitioner’s proficiency in
English was too limited to litigate his case pro se.” Pet. App. 53.

The magistrate judge recommending denying the petition in a final

report filed on December 20, 2017. Pet. App. 72. On February 27, 2018,
United States District Judge S. James Otero entered orders accepting the

recommendation, denying the petition, dismissing the action with prejudice,
and denying a COA. Pet. App. 45-50; district court dockets 36, 38. Judgment
was entered against Infante the same day. District court docket 37.

On September 25, 2018, the Ninth Circuit granted a COA on “(1)
whether appellant’s rights under the Sixth Amendment, Fourteenth
Amendment, or Batson v. Kentucky, 476 U.S. 79 (1986) were violated by the

removal of Juror No. 8, including whether this claim is procedurally
defaulted; and (2) whether the district court abused its discretion by denying
appellant’s motion to amend his petition.” Ninth Circuit docket 4.

3 “ECF pages” refer to the page numbers created at the top of the
document by the district court’s electronic filing system, rather than to the
page numbers at the bottom of the document.

11

On March 13, 2020, the Ninth Circuit affirmed the judgment against
Infante in a published opinion. Pet. App. 32-44. The Court held that
Infante’s claims were not procedurally defaulted; “assume[d] without

deciding that the more stringent de novo review standard is appropriate” on
the equal protection claim; ruled that “Infante’s [equal protection] claim fails
no matter which standard we apply”; and rejected Infante’s due process and

impartial jury claims for the same reasons it denied the equal protection
claim. Pet. App. 40-41.4

REASONS FOR GRANTING THE WRIT
I.

Standards of Review and AEDPA Standards
The Court reviews the denial of Infante’s habeas corpus petition de

novo. Curiel v. Miller, 830 F.3d 864, 868 (9th Cir. 2016) (en banc). The

Court reviews de novo questions of law and mixed questions of law and fact.
Mayfield v. Woodford, 270 F.3d 915, 922 (9th Cir. 2001) (en banc). The

application of the Antiterrorism and Effective Death Penalty Act (“AEDPA”)
is a mixed question of law and fact. Mann v. Ryan, 828 F.3d 1143, 1151 (9th
Cir. 2016) (en banc). “To the extent it is necessary to review findings of fact

4 The procedural default ruling mooted the leave to amend issue;
Infante sought leave to add a claim of ineffective assistance of counsel for
failure to specifically invoke Batson in the event his equal protection claim
was deemed defaulted in federal court. Pet. App. 40.

12

made in the district court, the clearly erroneous standard applies.” Silva v.
Woodford, 279 F.3d 825, 835 (9th Cir. 2002).

Infante filed his federal habeas petition after AEDPA’s effective date;

therefore, his petition is governed by AEDPA. Woodford v. Garceau, 538 U.S.

202, 205, 210 (2003). To obtain relief under AEDPA, a petitioner must show
that his constitutional rights were violated under 28 U.S.C. § 2254(a) and
that § 2254(d) does not bar relief on any claim adjudicated on the merits in
state court. Frantz v. Hazey, 533 F.3d 724, 735-737 (9th Cir. 2008) (en banc).

Under § 2254(d), a habeas petition challenging a state court judgment:

shall not be granted with respect to any claim that
was adjudicated on the merits in State court
proceedings unless the adjudication of the claim-(l)
resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or (2) resulted
in a decision that was based on an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding.

(Emphasis added.) If the claim was not adjudicated on the merits in state
court, § 2254(d) does not apply and the federal court reviews the claim de
novo. Cone v. Bell, 556 U.S. 449, 472 (2009); Amado v. Gonzalez, 758 F.3d

1119, 1130 (9th Cir. 2014).

The relevant state court decision for purposes of federal review is the
last reasoned decision that resolves the claim at issue. Curiel, 830 F.3d at

13

869. Where, as here, the California Supreme Court summarily denies a
petition for review on direct appeal, the federal court ‘“look[s] through’ thfat]
unexplained decision to the last reasoned state-court decision that does

provide a relevant rationale,” Wilson v. Sellers, 138 S. Ct. 1188, 1192 (2018),
i.e., the Court of Appeal opinion. See, e.g., Johnson v. Williams, 568 U.S. 289,

297 n.l (2013).
There is a rebuttable presumption that a state court adjudicated the

merits of a federal claim—triggering the application of § 2254(d)—when it
denies the claim in an opinion that addresses some issues but does not
expressly address the federal claim in question. Williams, 568 U.S. at 293.

When a federal claim has been adjudicated on the merits in a state

court opinion, § 2254(d) analysis is limited to evaluating the “state court’s
actual decisions and analysis.” Frantz, 533 F.3d at 737 (original emphasis);

Wilson, 138 S. Ct. at 1192.

“‘[C]learly established Federal law’ under § 2254(d)(1) is the governing
legal principle or principles set forth by the Supreme Court at the time the

state court renders its decision.” Lockyer v. Andrade, 538 U.S. 63, 71-72
(2003). A governing legal principle or principles may result from decisions in

one or more Supreme Court opinions. See, e.g., Abdul-Kabir v. Quarterman,

550 U.S. 233, 246-256 (2007) (canvassing myriad Supreme Court opinions to

discern and apply the governing rule that capital sentencing juries must be
14

able to give meaningful consideration and effect to all mitigating evidence);

Brewer v. Quarterman, 550 U.S. 286, 288-89 (2007) (same); Gonzalez v.
Duncan, 551 F.3d 875, 879-80 (9th Cir. 2008) (identifying governing legal
principle for cruel and unusual punishment claim by examining five Supreme

Court opinions).

A ‘“state court decision is “contrary to” clearly established Supreme

Court precedent if the state court applies a rule that contradicts the
governing law set forth in Supreme Court cases or if the state court confronts
a set of facts materially indistinguishable from those at issue in a decision of

the Supreme Court and, nevertheless, arrives at a result different from its

precedent.’” Cudjo v. Ayers, 698 F.3d 752, 761 (9th Cir. 2012) (original
emphasis).

A state court unreasonably applies federal law when it identifies the
correct governing legal principle but unreasonably applies it to the facts of
the case. Id. “That the standard is stated in general terms does not mean
the application was reasonable. AEDPA does not ‘require state and federal

courts to wait for some nearly identical factual pattern before a legal rule
must be applied.’” Panetti v. Quarterman, 551 U.S. 930, 953 (2007); Wiggins

v. Smith, 539 U.S. 510, 520 (2003) (“[a] federal court may grant relief when a
state court has misapplied a ‘governing legal principle’ to ‘a set of facts

different from those of the case in which the principle was announced.’”).
15

A state court unreasonably determines the facts under § 2254(d)(2)
when its finding of fact is unsupported or contradicted by the record or when
the fact-finding process itself was defective. Brumfield v. Cain, 135 S. Ct.
2269, 2277-2282 (2015); Taylor v. Maddox, 366 F.3d 992, 999-1001 (9th Cir.

2004).
When a federal court concludes that the state court decision is contrary

to or an unreasonable application of federal law, or is based on an

unreasonable factual determination, it reviews the claim de novo in assessing
whether the petitioner’s constitutional rights were violated. Panetti, 551 U.S.
at 953-954; Frantz, 533 F.3d at 735; Maxwell v. Roe, 628 F.3d 486, 506 (9th

Cir. 2010).

II.

Infante Should Receive a New Trial Because the Trial Judge
Removed Juror 8 in Violation of Infante’s Fourteenth
Amendment Right to Equal Protection of the Laws
A.

The State Court Did Not Adjudicate the Merits of the
Equal Protection Claim and Therefore It Is Reviewed
De Novo

The Ninth Circuit assumed without deciding that the state court did
not adjudicate the merits of Infante’s equal protection claim and reviewed the
claim de novo. Pet. App. 40. The court also ruled that “Infante’s claim fails

no matter which standard” applies. Id. In the event that this Court may
conclude that relief depends on whether 28 U.S.C. § 2254(d) applies to his

claim, Infante briefly discusses why his claim should be reviewed de novo.

16

As shown above, the California Court of Appeal did not adjudicate

Infante’s federal equal protection claim on the merits. Although Infante
expressly asserted his equal protection claim in his opening appeal brief, and

cited federal cases and constitutional provisions in support of it, the Court of
Appeal never mentioned equal protection, Batson, any other federal cases, or

Batson's analog Wheeler, in affirming the judgment. Supra at 8-9.
Respondent’s brief was similarly silent on these topics. Supra at 7-8.
Respondent’s tack appeared to be to ignore the federal equal protection
argument in the hope that the court would, too. It did. This is not a case

where “state precedent is viewed as fully incorporating a related federal
constitutional guarantee”;5 the defendant made only “a fleeting reference” to
a federal constitutional provision or federal precedent; or where “a state court

may simply regard a claim as too insubstantial to merit discussion.”
Williams, 568 U.S. at 298-299.6 Accordingly, Infante has rebutted the
presumption that the state court adjudicated the merits of his federal equal

5 As noted above, the state court did not cite the only state precedent,
Wheeler, that could be viewed as incorporating a Batson claim.
6 This Court’s order requiring the State to file a response to Infante’s
first certiorari petition and the Ninth Circuit’s grant of a COA show that
Infante’s claim is not “too insubstantial to merit discussion.”

17

protection claim, § 2254(d) does not apply, and this Court reviews the claim
de novo. Id. at 1097.

B.

Infante Is Entitled to Relief on De Novo Review

Batson held that “the Equal Protection Clause forbids the prosecutor to
challenge potential jurors solely on account of their race or on the assumption

that black jurors as a group will be unable impartially to consider the State’s

case against a black defendant.” 476 U.S. at 89. McCollum reiterated that
this Court “firmly has rejected the view that assumptions of partiality based

on race provide a legitimate basis for disqualifying a person as an impartial
juror.” 505 U.S. at 59. The removal of a single juror on the basis of race is a

structural error that requires a new trial without a showing of prejudice.

Snyder v. Louisiana, 552 U.S. 472, 478 (2008); Crittenden v. Chappell, 804
F.3d 998, 1003 (9th Cir. 2015) (“[i]t is well established that a Batson violation

is a structural error.”)
Infante’s claim is that if prosecutors are forbidden from striking jurors

on the assumption that they will favor members of their own racial group,

then trial judges are forbidden from removing jurors on that assumption as
well. District court docket 1 at 20; see also Batson, 476 U.S. at 88 (“the

Constitution prohibits all forms of purposeful racial discrimination in
selection of jurors”) (footnote omitted); Edmonson v. Leesville Concrete Co.,

Inc., 500 U.S. 614, 624 (1991) (trial judge is state actor when enforcing

18

preemptory challenge); United States v. Mitchell, 502 F.3d 931, 952 (9th Cir.

2007) (“Judges, of course, are state actors, and the obligation to refrain from

racial discrimination in the selection of jurors extends to all those state actors
‘who are trusted with jury selection.’ Akins v. Texas, 325 U.S. 398, 403 . . .

(1945)”).
The Ninth Circuit properly treated Infante’s allegation that “the trial
judge dismissed [a] juror for race-related reasons and so ran afoul of the

prohibition on racial discrimination in jury selection” as stating a cognizable

equal protection claim. Pet. App. 34; see also Pet. App. 64 (magistrate judge
states that Equal Protection Clause ban on “the exclusion of jury members on
the basis of race” “is binding on every state actor in the trial, including the
trial judge”); Pet. App. 50 (district court adopts this ruling). However, the

Ninth Circuit “conclude [d] that the state courts correctly determined that the
judge’s concerns reflected the juror’s own statements of race-related bias, not
discriminatory reliance by the judge on the juror’s race.” Pet. App. 34-35.

The Ninth Circuit’s reasoning does not withstand scrutiny, and Infante is

entitled to relief on de novo review.

The record shows that the trial judge removed Juror 8 on the basis of
the unconstitutional assumption that Juror 8 would favor Infante because
they shared the same racial identity, despite the fact that Juror 8 specifically,

and spontaneously, disavowed any such an allegiance. Supra at 5 (Juror 8
19

says: “I know he’s Filipino. I’m Filipino. It doesn’t have nothing to do with
that, but it just reflects me that he looks like my uncle.”). The judge ruled

that he could not “see that the prosecution would get a fair trial with this

particular juror given the representations that he has made, especially based
upon race, racial identity. That is my concern regardless of whether or not he
resembles a family member. I don’t want any allegiance to one party over the

other based upon racial identification. Pet. App. 93 (emphasis added). The

judge thus removed the juror on the very assumption of racial bias and

favoritism prohibited by the Equal Protection Clause. McCollum, 505 U.S. at
59.

Despite this record, the Ninth Circuit ruled that “the trial judge’s jury
strike was not ‘motivated in substantial part by discriminatory intent,’
Flowers v. Mississippi, 139 S. Ct. 2228, 2235 (2019) (citation and internal

quotation marks omitted), nor was it based on attributing racial bias to a
juror because of the juror’s racial background.” Pet. App. 42. Instead,

according to the Ninth Circuit, the record “suggested” that Juror 8 “was
‘predisposed to favor the defendant.’” Id. The Ninth Circuit said that

“United States v. Mitchell, 502 F.3d 931 (9th Cir. 2007), and Cook v.
LaMarque, 593 F.3d 81 (9th Cir. 2010), both support [its] conclusion that the
trial judge responded appropriately to Juror 8’s statements.” Id. Mitchell

20

and LaMarque do not support the court’s conclusion but instead highlight

why relief is required here.
Mitchell rejected a claim that the district court violated equal

protection by making racially-discriminatory decisions to strike jurors at a

capital trial. 502 F.3d at 951-953. The prospective juror in Mitchell that
Infante’s panel focusses on told the trial judge that “‘as a Native American,”’
like the defendant, the death penalty “is something that we don’t have in our

laws on the reservation.’” Id. at 953. He said he thought that “being Native
American would affect his ability to be fair and impartial. He said that

having to sit in judgment of another Navajo would ‘have a long-term affect on
him emotionally and to a certain extent spiritually,’ at least if he were to
‘come out to a certain result,’ because Navajo ceremonies are based on
valuing life; therefore, it would be ‘difficult’ for him to sit as a juror against a

fellow Navajo.” Id. He added that “he thought it would be wrong for the

United States government to put a Navajo to death for murder.” Id. The
district court concluded that the juror “would be substantially impaired from

being able to perform his duties” in a death penalty case and excused him.
Id. The Ninth Circuit ruled that the district court did not impermissibly
draw inferences from the juror’s race in striking the juror. Id.

The facts here are unlike Mitchell. The juror in Mitchell “injected race

into the voir dire” when he responded “to the court’s inquiry about whether
21

he had an opinion about the death penalty.” Id. He then provided numerous
additional details about how his shared racial identity with the defendant
would prevent him from imposing the death penalty.

In Infante’s case, Juror 8 began his discussion with the court by saying
that Infante looked like his uncle. Pet. App. 88. Upon questioning by the

judge, two pages later in the transcript, Juror 8 said, “I know he’s Filipino.

I’m Filipino. It doesn’t have nothing to do with that, but it just reflects me
that he looks like my uncle.” Pet. App. 90 (emphasis added). The judge

seized upon the Filipino reference, telling the juror: “You cannot allow that
type of similarity between races of the accused and yourself’ to affect

decision-making in the case. Pet. App. 91. The judge thus turned the juror’s

initial and sole point that Infante looked like his uncle into a referendum on
race and unreasonably assumed that the prosecution couldn’t get a fair trial

because Juror 8 would have an allegiance with Infante based upon a shared

racial identification. The judge emphasized that the shared racial identity of
Juror 8 and Infante was his “concern regardless of whether or not he
[Infante] resembles a family member.” Pet. App 93. This is an impermissible

inference based on race that violates this Court’s equal protection
jurisprudence.
Further, unlike the juror in Mitchell, Juror 8 never told the court that

sitting in judgment of a defendant of the same race would have a long term

22

effect -- or any effect -- on him emotionally and spiritually, that the

government shouldn’t be able to punish the defendant the way it sought, or

anything of that sort. And in contrast to the juror in Mitchell, Juror 8

repeatedly told the court he would separate out the fact that Infante looked

like his uncle and that they were both Filipinos from the case and not allow
those facts to affect his decision. Pet. App. 89-91. There is no basis to

conclude that Juror 8 was substantially impaired in his ability to serve as an

impartial juror.

The prospective juror in Cook that Infante’s panel focusses on gave a

response in voir dire at a murder trial that “reflectfed] outright bias against
law enforcement witnesses.” Cook, 593 F.3d at 821. Moreover, the juror’s
response, “Tm a black man in America,’ to a question about prejudice also

troubled the prosecutor.” Id. at 820. The prosecutor “was concerned that [the
juror] saw himself as a victim, which might translate into sympathy for the
African American defendants,” and contrasted the juror with three other
Black prospective jurors who, the prosecutor said, had experienced racial
prejudice but “did not feel victimized.” Id. The prosecutor “would have

permitted” those three Black prospective jurors to serve. Id. The Ninth

Circuit held that under 28 U.S.C. § 2254(d), it could not “say that the state

court was objectively unreasonable in concluding that attitude, and not race,

was the motivating factor.” Id. Here, by contrast, the shared racial identity
23

between Infante and Juror 8 was the express, and only, reason given by the
judge for removing the juror, and 28 U.S.C. § 2254(d) does not apply to the

petitioner’s claim.

The Ninth Circuit states that “the trial judge was not required to
accept Juror 8’s eventual pledge to be impartial” and quotes United States v.

Christensen, 828 F.3d 763, 812 (9th Cir. 2015), for the point that a “‘juror’s
assurance that he or she can render a fair and impartial verdict is not
dispositive.’” Pet. App. 43. But in Christensen, the trial judge never asked
the juror in question whether he was willing to follow the law before

dismissing him after fellow jurors said he refused to follow the law because

he disagreed with it. 828 F.3d at 806, 812. Here, the judge asked Juror 8

twice if he could be fair and decide the case without reference to Infante’s
resemblance to his uncle, and both times he replied, “I will.” Supra at 5.
Further, no other juror came forward to report that Juror 8 could not follow
the law. This is not the “rare” case where “a juror’s assertion that he could be
impartial [sh]ould not be given credence.” Pet. App. 43.

The Ninth Circuit cites Uttecht v. Brown, 551 U.S. 1, 18 (2007), for the
point that a juror’s pledge to be impartial “alone does not necessarily
overcome a reasonable inference, drawn from other statements, that a juror
will be unable to perform his duties.” Pet. App. 43. Brown doesn’t support
the Ninth Circuit’s decision to deny relief.
24

In Brown, a capital habeas petitioner argued that the trial court

wrongly granted the prosecution’s motion to excuse Juror Z because he “could

not be impartial in deciding whether to impose a death sentence.” 551 U.S.

at 5. The Ninth Circuit granted relief. Id. In reversing the Ninth Circuit,

this Court emphasized that at trial, defense counsel did not object to Juror
Z’s removal but instead acquiesced to it. Id. at 19. The Court explained that

“[t]he defense’s volunteered comment that there was no objection is especially

significant because of frequent defense objections to the excusal of other
jurors” and that, in this context, the failure to object was “an invitation to
remove Juror Z.” Id. at 19-20. Accordingly, the state court denial of relief

“was not contrary to, or an unreasonable application of, clearly established
federal law.” Id. at 20. Here, by contrast, Infante’s trial lawyer objected to
the removal of Juror 8, as the trial judge acknowledged, and 28 U.S.C. §

2254(d) does not apply to Infante’s claim. Infante is entitled to relief on de

novo review.

C.

Even If 28 U.S.C. § 2254(d) Applies, It Does Not Bar
Relief

Even assuming, contrary to law, that § 2254(d) applies to Infante’s
equal protection claim, it does not bar relief. The state court denial is
contrary to and an unreasonable application of Batson and its progeny given

the trial judge’s explicit statement that he was dismissing Juror 8 because

25

the juror shared the same race as Infante and the judge did not “want any

allegiance to one party over the other based on racial identification.”

Respondent conceded in this Court in its opposition to Infante’s first
certiorari petition that “if the record in this case revealed that the trial court

excused Juror No. 8 based on an assumption that the juror could not
impartially judge a defendant of the same race or ethnicity, the State would
agree that the court committed Batson error.” Docket in United States

Supreme Court case no. 15-8613, July 6, 2016 entry at 12. That is exactly
what the record shows, and the state court’s rejection of Infante’s claim is
contrary to and an unreasonable application of Batson under § 2254(d)(1).

For this reason and others, the state court decision is also based on an

unreasonable determination of the facts under § 2254(d)(2). The question

whether the prosecutor discriminated in jury selection at step three of the

Batson test is considered a determination of fact under § 2254(d)(2). MillerEl v. Dretke, 545 U.S. 231, 240, 266 (2005); Green v. LaMarque, 532 F.3d

1028, 1031 (9th Cir. 2008). Section 2254(d)(2) does not contain a clearly

established law requirement, and a petitioner need not satisfy both (d)(1) and
(d)(2) in order to obtain habeas relief. Brumfield, 135 S. Ct. at 2276, 2283;
Thaler v. Haynes, 559 U.S. 43, 49 (2010) (per curiam).
Here, in the absence of any support for the notion that Juror 8

harbored a race-based allegiance with Infante -- and in the face of Juror 8’s

26

statement that “it doesn’t have nothing to do with that” -- the court assumed

that Juror 8 would favor a member of his own racial group and removed him

for that reason. The state court’s conclusion that the trial judge “had a

sufficient basis to conclude that the juror could not carry out his functions”
(Pet. App. 84) is unsupported by the record. Taylor, 366 F.3d at 999-1000.

The trial judge made it abundantly clear that the sole reason he dismissed
Juror 8 was because of his concern that his shared racial identity with

Infante would prevent the prosecution from receiving a fair trial. A race­
based reason for dismissing a juror is not a “sufficient basis to conclude that

the juror could not carry out his functions” under the Equal Protection

Clause. At a minimum, the dismissal was “motivated in substantial part by
discriminatory intent,” and therefore was impermissible, even if it was also

motivated by additional factors. Snyder, 552 U.S. at 485. It is an
unreasonable determination of fact to conclude that the removal of Juror 8
was not based on race or ethnicity. See Miller-El, 545 U.S. at 265 (state court
unreasonably determined facts on Batson claim where it provided

“unsupportable,” “‘dismissive and strained interpretationfs]”’ of the evidence).
In denying relief, the state court found “noteworthy” “the prosecutor’s

observations that were visible to the trial court that when the juror talked to
the court, ‘I noticed his eyes getting red, his voice was a little bit shaky as

well, and he just expressed such reservations.’” Pet. App. 84. But the judge
27

did not give these reasons for dismissing Juror 8. Under Batson, the person

striking the juror “has got to state his reasons as best he can and stand or fall
on the plausibility of the reasons he gives.” Miller-El, 545 U.S. at 252.

Reasons offered by other parties or by courts of appeal to justify the strike are

irrelevant. It is the actual reasons that matter. Id.', Shirley v. Yates, 807
F.3d 1090, 1104 (9th Cir. 2015). What the state court found “noteworthy” is

legally irrelevant under, and contrary to, Batson and this Court’s equal

protection jurisprudence. Section 2254(d)(1) and (2) are thus satisfied.

Miller-El, 545 U.S. at 266 (granting relief on Batson claim under AEDPA
where “[t]he strikes correlate with no fact as well as they correlate with

race”); Kesser v. Cambra, 465 F.3d 351, 364 (9th Cir. 2006) (en banc). Under
de novo review, the Court should grant relief for the reasons given above.

III.

Infante Should Receive a New Trial Because the Trial
Judge Removed Juror 8 in Violation of Infante’s Sixth
Amendment Right to an Impartial Jury and His Fourteenth
Amendment Right to Due Process
In denying Infante’s claim that the removal of Juror 8 violated

California Penal Code § 1089, the California Court of Appeal described the

“heightened standard” of the “demonstrable reality” test that applies to such
claims as reflecting “an appellate court’s obligation to protect a defendant’s

fundamental rights to due process and to a fair trial by an unbiased jury,”

rights asserted by Infante in his briefs. Supra at 9. Thus, it appears that

28

state court adjudicated the merits of the due process and fair trial by an
impartial jury claims later raised by Infante in ground two of his federal

petition when it denied the § 1089 claim, and therefore § 2254(d) applies.
It is clearly established federal law that the Sixth and Fourteenth
Amendments guarantee state criminal defendants the right to a fair trial by
a panel of impartial jurors. Morgan v. Illinois, 504 U.S. 719, 726-27 (1992)
(collecting cases). An impartial juror is one who “can lay aside his impression

or opinion and render a verdict based on the evidence presented in court.”
Irvin v. Dowd, 366 U.S. 717, 723 (1961). A juror may be removed for cause

when his “views would ‘prevent or substantially impair the performance of
his duties as a juror in accordance with his instructions and his oath.’”
Wainwright v. Witt, 469 U.S. 412, 424 (1985); Merced v. McGrath, 426 F.3d

1076, 1080-1081 (9th Cir. 2005) (Witt is clearly established federal law for
assessing the removal of jurors in non-capital cases).

Section 2254(d) is satisfied for the same reasons it is on the equal
protection claim. See supra at 25-28. Juror 8’s race was the basis for his

dismissal by the court, not just one factor among many. The judge said he
removed Juror 8 because of a perceived race-based allegiance to the

defendant and that that was his “concern regardless of whether or not

[Infante] resembles a family member.” The record provides no support for
the conclusion that Juror 8 harbored such an allegiance or that he could

29

reasonably be removed under Witt. The state court’s finding that there was
good cause to dismiss Juror 8 is unsupported by the record, Taylor, 366 F.3d

at 999-1001, and is contrary to and an unreasonable application of federal

law. Accordingly, 28 U.S.C. § 2254(d) does not bar relief and the Court
should grant relief on de novo review for the reasons stated in Section II.

CONCLUSION
For the foregoing reasons, the Court should grant Infante’s petition,
reverse the judgment of the Ninth Circuit, and grant relief.

Respectfully submitted,

CUAUHTEMOC ORTEGA
Interim Federal Public Defender

DATED: August 3, 2020

MARK R. DROZb'OWSKI*
Deputy Federal Public Defender
Attorneys for Petitioner
* Counsel of Record

30

